Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




FEDERAL INITIATIVES TO IMPROVE
   STATE MEDICAL BOARDS’
       PERFORMANCE




                 w          A

             g

             u          I




                 FEBRUARY 1993
                     OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit SeAces (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., the Regional
Inspector General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region,
Office of Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                               Headquartm
David Veroff, Project Leader                                Alan Levine
                                      A
                                               1




Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 FED ERAL INITIATIVES TO IMPROVE�
     STATE MEDICAL BOARDS’

          PERFORMANCE





           FEBRUMY   1993   oEI-ol-93mo



                                          —.
                         INTRODUCTION
PURPOSE

To review proposed and recommended Federal initiatives to improve State medical
boards’ disciplinary, licensure, and other quality assurance efforts.

BACKGROUND

State medical boards provide a vital front line of protection for the millions of people
who receive medical care including those in the Medicare and Medicaid programs.
They determine whether or not a physician meets the minimum necessary
qualifications to practice medicine. And through their enforcement of State medical
practice acts, they identi~ and take action against physicians responsible for poor
quality care, unprofessional behavior, and other violations of these acts.

In the past decade, State medical boards have steadily advanced their efforts in the
areas of licensure and discipline. Boards have come up with significant new
approaches, authorities, and resources to safeguard the public. Important efforts
include: widespread use of national licensure exams, strict mandatory reporting laws,
efforts to assist impaired physicians, re-education efforts, and aggressive prosecution of
physicians who abuse or exploit patients. In addition, as we highlight in our report
entitled “State Medical Boards and Quality-of-Care Cases: Promising Approaches,”
States have begun a number of innovative and important efforts to address
incompetent physicians and substandard care.l

The boards, however, still have many problems. Their capacity to be effective is often
hampered by lack of resources. Funding for boards is not always a high priority for
State legislatures. While boards often raise substantial amounts of money through
licensure and registration fees, in many States large proportions of these funds go into
general revenues rather than the boards’ own budgets. Budget crises in many States
in recent years have not helped this situation. Because of this and other limitations,
boards have not been at the forefront of quality assurance efforts.

The Office of Inspector General has a longstanding interest in the quality assurance
efforts of State medical boards. Recent and upcoming reports include:

   �   “State Medical Boards and Medical Discipline,” August 1990 (0EI-Ol-89-
       00560),

   �   “State Medical Boards and Medical Discipline: A State-By-State Review,”
       August 3990 (OEI-01-89-00562),

   �   “Quality Assurance Activities of Medical Licensure Authorities in the United
       States and Canada,” Februag 1991 (OEI-01-89-00561),


                                             1
  �    “Performance Indicators, Annual Reports, and State Medical Discipline: A
       State-By-State Review,” July 1991 (OEI-01-89-00563),

  �	   “The Peer Review Organizations and State Medical Boards: A Vital Link
       (Draft),” August 1992 (OEI-01-92-O0530), and

  �	   “National Practitioner Data Bank: Usefulness and Impact of Reports to State
       Licensing Boards (Draft),” October 1992 (OEI-01-90-00523).

These reports have highlighted efforts States can take to protect the public from poor
medical care. They have also identified a number of initiatives the Federal
government could undertake to foster improvement in the boards.

Several other proposals and reports have outlined new efforts the Federal government
might undertake to improve the quality assurance efforts of State medical boards.
The initiatives come from Congress, the Department of Health and Human Services,
the Department of Justice and interagency task forces. Our cataloging of initiatives
highlights significant proposals that have received widespread attention.

This report is timed so as to provide the new Administration and Congress with a
brief overview of potential Federal action to assist States’ quality assurance efforts
focused at physicians. By presenting several crucial issues State medical boards face
(summarized from our reports’ findings) and describing a number of Federal initiatives
that we and others have recommended to address the problems, we hope to inform
Congressional and executive office decision makers. We do not implicitly or explicitly
either endorse or reject any of the other organizations’ proposed initiatives.

We conducted our review in accordance with the Jnterim Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           2
     PURSUIT                OF QUALITY-OF-CARE
                               CASES

ISSUE:       States have much difficulty pursuing quality-of-care cases. These cases
             are time-consuming and complex and require legal and medical
             expertise. States often have problems identiijing significant cases and
             investigating them. Some States have medical practice acts that make
             pursuing these cases even more diificuk

OIG RECOM’’ENDATTONS:

REQUIRE MEDICARE PEER REWEW ORGANIZATIONS (PROS) TO REPORT
CERTAIN CASES: One of the difficulties boards have is that they do not receive
complete and accurate information from complainants. The PROS could provide
detailed and significant case information about poor-quality physicians. In our August
1992 draft report entitled “The Peer Review Organizations and State Medical Boards:
A Vital Link,” we recommended that the Health Care Financing Administration
(HCFA) propose legislation mandating that PROS provide case information to State
medical boards when they have confirmed, after medical review, that a physician is
responsible for medical mismanagement resulting in significant adverse effects on the
patient.2 An interagency task force on fraud, abuse, and waste echoed our
recommendation .3 l%e HCFA did not concur with our recommendation. l%ey
expressed concern that disclosure of this information would damage the cooperatz”ve
relationship between the PROS and physicians that they are trying to foster.

ALLOW STATE MEDICAID PROGRAMS TO SHARE CASE I“FORM4TION.
Similarly, Medicaid agencies have information about quality problems. In our August
1990 report entitled “State Medical Boards and Medical Discipline,”a we
recommended that HCFA amend Medicaid regulations or propose legislation to allow
State Medicaid agencies to share with the medical boards case information on
physicians against whom they have taken adverse action. In response to the
recommendation, HCFA aqyed that action on the Medicaid reporting was unnecessa~
since the HHS Ofice of General Counsel had made clear that State law determines
whether thk information is reportable. Howeve~ the Omnibu Budget Reconciliah’on Act
of 1990 requires State Medicaid agencies to notijj their State k medical board when a
physician is terminated, suspended, or otherwise sanctioned. The HCFA has not
publiihed regulations to implement thk prowkion.

PROMOTE IDENTIFICATION OF QUALITY PROBLEMS IN NURSING HOMES:
In our “Boards and Discipline” report, we recommended the Administration on Aging
(AoA) and HCFA assure that the Long Term Care Ombudsman Program and the



    aHereafter referred to as “Boards and Discipline.”


                                           3
States’ survey and certification agencies provide assistance to State medical boards in
identifying instances of improper medical care provided to nursing home residents.
While AoA fhllj concured with our report and sent copies of the report to Ontbu&nan
program administration, HCFA asked for firther clarification. We provided firther
explanation in our jinal report.

ENCOURAGE BOARDS TO USE PROS TO ASSIST ON QUALITY-OF-CARE
CYISES: Some boards have difficulty getting access to medical opinions on quality-of-
care cases. In our “Boards and Discipline” report, we recommended that PHS in
collaboration with HCFA determine ways to encourage and assist boards to contract
with PROS to conduct reviews of quality-of-care cases. Z7zePHS concurred with our
recommendation, but felt it was HCFA h role to provide encouragement and assktance to
States on this issue. l%e HCFA also concurred with our recommendation, but has not
provided any encouragement or assistance.

PROK?DE ASSISTANCE TO STATES TO IMPROVE INJ?ESTIGAT~                      EFFORTS:
In our “Boards and Discipline” report, we recommended PHS provide financial
support for technical assistance intended to improve boards’ investigative efforts. We
also recommended that PHS, through its Agency for Health Care Policy and Research,
provide demonstration funding concerning the use of practice standards and guidelines
to guide investigative efforts in quality-of-care cases. 7he PHS concurred with both
recommendations and has begun discussing the use of pracn”cestandards and guidelines
with States.

O12%ERPROPOSED FEDERAL IN~17’Kt?S:

PROVDE ASSISTANCE TO STATES TO EVALUATE MEDICAL PRACTICE ACTS:
Some States’ medical practice acts could be improved to allow boards and their staff
more authority to investigate and prosecute incompetent or unprofessional physicians.
A report from an HHS task force recommended the Department provide technical
assistance to States for educating legislators on evaluations of their medical practice
acts? l%e Public Health Service has, in ~hepast, awarded grants to the Federation of
State Medical Boar& to provide technical assistance to States to improve their practice
acts and to develop a model medical prach”ceact. There k no such effort cuvently.




                                            4


                                                                            —
 PROACTIVE                QUALITY  ASSESSMENT�
                       AND ASSURANCE�

ISSUE	       After initial I.icensure examinations, State medical boards have little or
             no role in proactively assessing and assuring quality medical care. All
             boards respond to complaints and reports about poorquality care, but
             few do anything either to independently assess and address individual
             physician performan= or to promote improved quality of care for all
             physicians.

OIG RECOMUEJWAITONS:

TEST RANDOM PRACTICE AUDITS: In our February 1991 report entitled “Quality
Assurance Activities of Medical Licensure Authorities in the United States and
Canada,’fb we recommended that PHS provide demonstration funding to States on the
use of random practice audits as preventive, quality assurance measures. This report
noted the successful use of random practice audits, particularly with isolated
physicians, to assess performance and improve practices. Z7ie PHS concumed with the
intent of the recommendation, but believes that medical review criteria and medical
outcomes measures must be more&l& developed pn”orto implementah”on.

OXHER PROPOSED FEDERAL IN~ZMZS:

REQUIRE PERIODIC REEMMIN?ATION OF PHYSICJ%NS EITHER THROUGH
THE BOARDS OR THROUGH THE DEPARTMENT OF HEALTH AND HUMAN
SER~CES (HHS): Recently proposed legislation would have required every physician
treating Medicare patients to take a recertification examination eve~ seven years.5
The examination, if administered by a State medical board, would have to be
approved by the Secretary of HHS. Otherwise the examination would be provided
directly by HHS. This legislation was not voted on in 1991 or 1992.

REQUIRE STATES TO IMPLEMENT QUALITY ASSURANCE PROGRAMS:
Recently proposed legislation would have required each State to implement quality
assurance programs that, among other things, would establish standards of care in
areas where there is a great risk of negligence. G This legislation was not voted on in
1992.




    bHereafter referred to as ‘QA Activities.”


                                            5
          PERFORMANCE                           ASSESSMENT

ISSUE	        State medical boards have not been able, over the years, to gauge their
              performance in relation to other State medical boards. More active
              assessment of performance would allow States to focus resources and
              effectively present to the public and to State legislatures their
              accomplishments and needs.

OIG RECOMMEJWAZZONS:

PROIZDE ASSISTANCE FOR DEK!5LOPMENT OF PERFORMANCE
INDICATORS: In “Boards and Discipline,” we recommended that PHS provide
financial support for the development of performance indicators suitable for
widespread use by State medical boards. A Department of Justice task force
recommended HHS itself develop indicators of performance. l%e PHS has supported
the Federation of State Medical Board’s efforts to develop a peflormance assessment
program   (SAI). Approximate~ seventy indicaton have been developed, but are not
cun-ently used widely. A second phase of the project, which would involve
implementation, k scheduled for completion by the end of 1993.

COLLECT ANALYZE, AND DISSEMINATE STATE-BY-STATE DATA: In “Boards
and Discipline,” we recommended that PHS collect, analyze, and disseminate State-by-
State data on staffing, revenues, expenditures, and caseloads of State medical boards.
7he PHS concurred with this recommendation. The SAI may eventually fulfill this need
if the information gathered k disseminated.

OXHER PROPOSED FEDERAL IN~TM5S:

DEZl?LOP AND REQUIRE BOARDS TO REPORT INFORMATION RELEVANT TO
PERFORA4XNCE CRITERM: Recently proposed Federal legislation would require
the Secretary of Health and Human Semites to develop regulations that specify
performance criteria for medical boards.’ The legislation also would require States to
collect, analyze, and supply the Secretary with information and data on staffing,
revenues, disciplinary actions, expenditures, caseloads, and the use of continuing
medical education programs to demonstrate adherence to the criteria. This legislation
has not been voted on in 1993.




                                            6
                                  FUNDING

ISSUE	        Medical boards often are inadequately tided.         This lack of funding
              restricts boards’ ability to address disciplinary issues adequately and to
              be proactive in assuring quality.

OIG RECOMMENDAZTONS:

ENCOURAGE THE SIL4RLNG OF INFORM4TIONABOUT ADDRESSING
RESOURCE LIMITATIONS: In mu- “Boards and Discipline” report, we recommended
that PHS convene a national meeting to focus attention on the importance of the
boards’ oversight role and to examine how the boards’ resource and other limitations
should be addressed. We also recommended, and a Department of Justice group
concurred,8 that PHS develop performance standards that would, among other things,
compare State medical boards on the basis of licensure revenue and expenditures.
l%e PHS concurred with our recommendations and has, as mentioned before, helped
develop SAI which includes questions about revenue and expenditures.

PROKTDE FINANCLAL SUPPORT FOR PROACTIVE/INNOVAT~                         ACT~TIES:
As mentioned above, in our “Boards and Discipline” report we recommended that
PHS provide financial support for a number of important developments. We
recommended that PHS provide funds for the development of performance indicators
suitable for widespread use by State medical boards, funds for technical assistance
efforts intended to improve the boards’ investigative efforts, and, through the Agency
for Health Care Policy and Research (AHCPR), demonstration funds concerning the
use of practice standards and guidelines to guide investigative efforts in quality-of-care
cases. As mentioned above, in our “QA Activities” report, we recommended that PHS
provide demonstration funding on the use of random practice audits as preventive
quality assurance measures. 7%e PHS concurred with all of these recommendations
except the last.

02HER PROPOSED F~ERi4L             INITL477’KES:

REQUIRE T~T THE TOTAL MllOUNT OF FEES PAID BY PHY5’ICL4NS BE

ALLOCATED TO BOARD ACTIWTIES: In many States, a large proportion of the

licensure and registration fees collected by boards are used to support general

activities of the State government, and are not dedicated to the boards’ activities.

Recently proposed legislation would have required States, in order to receive Federal

PHS or Medicaid funding, to certify that they allocate the total amount of fees paid

for licensing or certification of health care practitioners to the agencies responsible for

disciplinary actions. 9 Neither piece of legislation was voted on in 1992.




                                             7
                            CONCLUSION

State medical boards are responsible for assuring the basic competence of all
physicians. A medical license allows physicians to practice on patients with almost no
restrictions. Since the Federal government has a direct role in assuring that Medicare
and Medicaid patients are given adequate medical treatment and has an indirect role
in promoting the health and well-being of all Americans, the OIG and others in
Federal government have great interest in making sure that State medical boards are
doing their jobs in protecting the public.

The Federal government can have a significant role in encouraging, funding, and, in
some cases, mandating improvements in medical boards. This does not, however,
imply that they have any explicit oversight authority over boards or that States
themselves do not have responsibility for boards’ performance. All of the initiatives
described in this report must supplement active and effective State involvement to
assure quality medical care.




                                           8
                          APPENDIX                  A

                                      NOTES



1.   “State Medical Boards’ Pursuit of Quality-of-Care   Cases:   p~omising
     Approaches,” 0EI-01-92-OO050, Februaxy 1993.

2.   We and others have been urging action in this area for years. In a 1986 report,
     “Medical Licensure and Discipline: An Overview,” we recommended that
     HCFA’S regulations be amended to require PROS to report more extensive and
     timely information to boards. In “Boards and Discipline,” we recommended
     legislation mandating that PROS share case information with boards. In
     December 1990, Congress, in the Omnibus Budget Reconciliation Act, required
     that PROS notify boards of physicians whom they have found responsible for
     serious quality-of-care problems. Congress, in the law, stipulated that
     notification was not to occur until after notice and hearing are granted to the
     physicians involved.

3.   “Health Care Anti-Fraud, Abuse and Waste Initiative,” State/Federal Model
     Legislation Working Group of the Administration’s Task Force on Health Care
     Anti-Fraud, Abuse, and Waste, September 17, 1992.

4.   Otis R. Bowen, M.D., “Report of the Task Force on Medical Liability and
     Malpractice,” Department of Health and Human Services, August 1987, p. 22.

5.   “The Medicare Physician Qualification Act of 1990,” H.R. 4464, (lOlst
     Congress).

6.   “Basicare Health Access and Cost Control Act,” S. 2346, (102nd Congress).

7.   “Health Care Choice and Access Improvement      Act of 1993,” H.R. 150, (103rd
     Congress).

8.   “Medical Malpractice Reform Paper,” Department       of Justice, Tort Law Reform
     Working Group (September 21, 1990).

9.   ‘The American Health Quality Act,” S. 1836 in the 102nd Congress linked
     certain Medicaid funds to this requirement. “The Ensuring Access Through
     Medical Liability Reform Act of 1991,” S. 489 in the same Congress linked PHS
     funding to States to this requirement.




                                        A-1
